la
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1230

RUTH T. MCLEAN,
Appellant
v.
800 DC, LLC, doing business as BIZZIE &
1800DRYCLEAN
(District Court No.: 3-19-cv-17310)

SUE PETITION FOR REHEARING

Present: SMITH. Chief Judge. McKEE. AMBRO,
CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ,
KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, Circuit Judges and
SCIRICA*, Senior Judge
The petition for rehearing filed by appellant in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit
in regular active service, and no judge who concurred in
’ Judge Scirica’s vote is limited to panel rehearing only.

2a

the decision having asked for rehearing, and a majority
of the judges of the circuit in regular service not having
voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/THOMAS L. AMBRO
Circuit Judge
Dated: March 16,2021
SLC/cc: Ruth T. McLean
Elizabeth L. Sokol, Esq.

Case: 20-1230

Document: 24

Page: 1

Date Filed: 01/13/2021

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1230

RUTH T. MCLEAN,
Appellant
v.

800 DC, LLC, doing business as BIZZIE & 1800DRYCLEAN

On Appeal from the United States District Court
for the District of New Jersey
(D.N.J. Civil Action No. 3:19-cv-17310)
District Judge: Honorable Brian R. Martinotti
Submitted Pursuant to Third Circuit LAR 34.1(a)
January 4, 2021
Before: AMBRO, PORTER and SCIRICA, Circuit Judges
(Opinion filed: January 13, 2021)
OPINION*
PER CURIAM
Pro se appellant Ruth T. McLean appeals the District Court’s dismissal of her
complaint relating to a judgment entered against her in Michigan state court. For the
* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 20-1230

Document: 24

Page: 2

Date Filed: 01/13/2021

reasons that follow, we will affirm the District Court’s opinion with one modification.
This case stems from a breach of contract and unfair competition action in the 44th
District Court in Michigan, relating to a franchise owned and operated by McClean in
New Jersey. 800 DC, LLC sued McLean, and after a bench trial in May 2017 in which
McLean participated and brought a counterclaim for damages, judgment was entered in
favor of 800 DC as well as attorney’s fees for 800 DC. McLean did not appeal those
decisions. In July 2018, it began domestication and collection efforts for the judgment in
New Jersey. In August 2018, McLean sought to dismiss the domesticated judgment in
the New Jersey Superior Court, but her motion was denied in September 2018. McLean
sought reconsideration, which was denied, and filed another challenge to the judgment in
October 2018, which was also denied. McLean did not appeal from any of the above
judgments. McLean subsequently initiated bankruptcy proceedings in New Jersey in
November 2018, later voluntarily requested dismissal of her petition in September 2019.
Just before McLean dismissed her bankruptcy petition, she filed a complaint in the
District Court against 800 DC, challenging the Michigan judgment against her as
fraudulent because a process server improperly served her by using misleading
documents and arguing that her federal constitutional rights were violated in the course of
that proceeding, as she had argued in the Michigan court. She sought relief from the
Michigan judgment entered against her and damages from defendant. The District Court
held a hearing on McLean’s motion for a preliminary injunction, which was denied, and
another hearing when defendant moved to dismiss McLean’s complaint pursuant to

2

Case: 20-1230

Document: 24

Page: 3

Date Filed: 01/13/2021

Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6).1 Subsequently, the District
Court granted defendant’s motion and dismissed McLean’s complaint with prejudice,
concluding that it lacked jurisdiction over the dispute pursuant to the Rooker-Feldman
doctrine. McLean timely appealed.
We have jurisdiction over this appeal pursuant to 28 U.S.C. § 1291. We exercise
plenary review over the District Court’s order dismissing McLean’s claims. See Great
W. Mining & Mineral Co. v. Fox Rothschild LLP. 615 F.3d 159, 163 (3d Cir. 2010).
We agree that dismissal of McLean’s complaint was proper. On appeal, McLean
first argues that the District Court should have enjoined the Michigan judgment against
her because she alleges that her rights were violated in the course of those proceedings.
See Appellant’s Br. at p. 21-22, 34. However, the Rooker-Feldman doctrine precludes
federal court review of “cases brought by state-court losers complaining of injuries
caused by state-court judgments rendered before the district court proceedings
commenced and inviting district court review and rejection of those judgments.” Exxon
Mobil Coro, v. Saudi Basic Indus. Corp.. 544 U.S. 280, 284 (2005). This narrow doctrine
is limited to claims where the complained-of injury stems directly from a state court
proceeding. See Great W. Mining. 615 F.3d at 167. To the extent that McLean sought to
enjoin the Michigan judgment entered against her, which she did not appeal, the District
Court properly concluded that it lacked jurisdiction to consider that claim pursuant to the

1 Defendant’s motion was labeled as a motion for summary judgment, but the body of
the motion requested dismissal of McLean’s complaint under Rules 12(b)(1) and
12(b)(6). On appeal, 800 DC restates that it sought dismissal pursuant to these rules. See
Appellee’s Br. at p. 5.
3

Case: 20-1230

Document: 24

Page: 4

Date Filed: 01/13/2021

Rooker-Feldman doctrine. Malhan v. Sec’v U.S. Den’t of State. 938 F.3d 453, 458-59
(3d Cir. 2019) (explaining that there has been an effectively final judgment for purposes
of the Rooker-Feldman doctrine when a “state action has reached a point where neither
party seeks further action” and that “federal district courts are not amenable to appeals
from disappointed state court litigants” such that “[a] litigant seeking to appeal a state
court judgment must seek review in the United States Supreme Court under 28 U.S.C. §
1257”).
To the extent that McLean also sought and continues to seek damages from 800
DC for fraud and malfeasance by the process server who served her in the Michigan
action, McLean has never made allegations in her filings or hearings that 800 DC had any
involvement with the process server’s alleged used of misleading documents to
fraudulently serve her. Under these circumstances, McLean cannot state a claim against
800 DC for her dissatisfaction with the process server’s actions. See Warren Gen. Hosp.
v. Amgen Inc.. 643 F.3d 77, 84 (3d Cir. 2011) (explaining that to state a claim, a plaintiff
must “plead sufficient factual matter to show that the claim is facially plausible, thus
enabling the court to draw the reasonable inference that the defendant is liable for
misconduct alleged”) (internal quotation marks and citation omitted); see also Great W.
Mining, 615 F.3d at 167 (“When ... a federal plaintiff asserts injury caused by [a]
defendant’s actions and not by the state-court judgment, Rooker-Feldman is not a bar to
federal jurisdiction.”). To the extent that McLean also sought to bring federal due
process claims against 800 DC, such an action is available only against a state actor
pursuant to 42 U.S.C. § 1983, and McLean has never suggested that allegations to
4

Case: 20-1230

Document: 24

Page: 5

Date Filed: 01/13/2021

suggest that 800 DC, a private LLC, is a state actor for purposes of § 1983. See Benn v.
Universal Health Svs.. Inc.. 371 F.3d 165, 169-70 (3d Cir. 2004).
Finally, we note that, to the extent that a dismissal under the Rooker-Feldman
doctrine was appropriate, the dismissal should have been without prejudice. See N.J.
Physicians. Inc, v. President of U.S.. 653 F.3d 234, 241 n.8 (3d Cir. 2011) (explaining
that dismissals for lack of subject matter jurisdiction are “by definition without
prejudice”). Accordingly, we modify the District Court’s order, in part, to dismiss
without prejudice that aspect of McLean’s complaint that sought review and rejection of
a state court judgment. We affirm the District Court’s dismissal as modified.

5

3a
United States District Court for the__
District of New Jersey
File Number 3:19-cv-17310

Circuit

Ruth T. Mclean., Plaintiff
v.
Notice of Appeal
800DC LLC DBA BIZZIE
AND 1800DRYCLEAN.,
Defendant
Notice is hereby given that Ruth T. Mclean,
Plaintiff in the above named case,' hereby appeal to the
United States Court of Appeals for the third. Circuit
for a Judgment
For; Entry 31 The Judgment:
1.
Judgment be and hereby granted for the
reasons stated on record;
2.
Judgment be and hereby is entered in
Defendant’s favor in the form of a
dismissal of Plaintiff complaint, in its
entirety, with prejudice;
3.
The Plaintiffs “Motion for Writ, Motion
for Summary Judgment” (ECF Doc, No.
25) and “Motion to deny Summary
Judgment” (ECF Doc. No. 26) be and
hereby are dismissed as moot;
with Judgment entered in this action on the January
day of 7th, 2020.
By: Ruth T. Mclean
' See Rules 3(c) for permissible ways of identifying appellants.

4a

In pro per. sui juris: Ruth T. Mclean
Address: P.O. Box 137 Plainsboro, NJ

5 s,

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

RUTH T. MCLEAN,
Case No.: 3:19-cv-17310
Plaintiff,
v.
JUDGMENT
800 DC, LLC, ET. AL.,
Defendants,

THIS MATTER having been brought before
the Court upon the motion for summary judgment
(ECF Doc. No. 19) by the Defendant, 800 DC, LLC, by
and through its counsel the Law Offices of Kravis &
Wurgaft, P.C., and the Court, having reviewed the
moving papers, exhibits, opposition papers, if any, and
upon the oral argument of the parties on January 7,
2020, and for good cause shown.
IT
IS
on
this/
Day
of
_________ 2020,
ORDERED as follows:
1.
2.

3.

The Defendant’s motion is hereby GRANTED
for the reasons stated on the record;
Judgment be and hereby is entered in the
Defendant’s favor in the form of dismissal of the
Plaintiffs complaint; in its entirety, with
prejudice;
The Plaintiffs “motion for writ, motion for
summary judgment” (ECF Doc. No. 25) and

6a

4.

“motion to deny summary judgment” (ECF Doc.
No. 26) be and hereby are dismissed as moot; and
Filing of a signed copy of this Order by the
Court via ECF shall constitute service hereof
upon all parties to the action.
SO ORDERED

Hon. Brian R. Martinotti

7a
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1230

RUTH T. MCLEAN,
Appellant
v.
800 DC, LLC, doing business as BIZZIE &
1800DRYCLEAN

On Appeal from the United States District Court
for the District of New Jersey
(D.N.J. Civil Action No. 3:19-cv-17310)
District Judge: Honorable Brian R. Martinotti

Submitted Pursuant to Third Circuit LAR 34.1(a)
January 4,2021
Before: AMBRO, PORTER and SCIRICA, Circuit
Judges

JUDGMENT

This cause came to be considered on the record
from the United States District Court for the District
of New Jersey and was submitted pursuant to Third
Circuit LAR 34.1(a) on January 4, 2021.
On consideration whereof, it is now hereby

8a
ORDERED and ADJUDGED by this Court
that the judgment of the District Court entered
January 7, 2020, be and the same is hereby affirmed
with a modification. Costs taxed against the appellant.
All of the above in accordance with the opinion of
this Court.

ATTEST:

s/Patricia S. Dodszuweit
Clerk
Dated: January 13,2021

9a

OFFICE OF THE CLERK
United States Court of Appeals
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790
Website: www.ca3.uscourts.gov
TELEPHONE

215-597-2995
PATRICIA S. DODSZUWEIT
CLERK
January 13,2020
Ruth T. McLean
P.O. Box 137
Plainsboro, NJ 08536
Elizabeth L. Sokol, Esq.
Kostopoulos Rodriguez
550 West Merrill Street
Suite 100
Birmingham, MI 48009
RE: Ruth McLean v. 800 DC LLC
Case Number: 20-1230
District Court Case Number: 3-19-ev-17310
ENTRY OF JUDGMENT
Today, January 13, 2021 the Court entered its
judgment in the above-captioned matter pursuant to
Fed. R. App. P. 36.

10a
If you wish to seek review of the Court’s decision, you
may file a petition for rehearing. The procedures for
filing a petition for rehearing are set forth in Fed. R.
App. P. 35 and 40, 3rd Cir. LAR 35 and 40, and
summarized below.
Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if the
United States is a party.
Form Limits:
3900 words if produced by a computer, with a certificate
of compliance pursuant to Fed. R. App. P. 32(g).
15 pages if hand or type written.
Attachments:
A copy of the panel’s opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a
computer.
No other attachments are permitted without first
obtaining leave from the Court.
Unless the petition specifies that the petition seeks
only panel rehearing, the petition will be construed as
requesting both panel and en banc rehearing. Pursuant
to Fed. R. App. P. 35(b)(3), if separate petitions for
panel rehearing and rehearing en banc are submitted,
they will be treated as a single document and will be
subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court’s
rules do not provide for the subsequent filing of a
petition for rehearing en banc in the event that the

11a

petition seeking only panel rehearing is denied.
A party who is entitled to costs pursuant to
Fed.R.App.P. 39 must file an itemized and verified bill
of costs within 14 days from the entry of judgment. The
bill of costs must be submitted on the proper form
which is available on the court’s website.
A mandate will be issued at the appropriate time in
accordance with the Fed. R. App. P. 41.
Please consult the Rules of the Supreme Court of the
United States regarding the timing and requirements
for filing a petition for writ of certiorari.
Very truly yours,
Patricia S. Dodszuweit, Clerk
By: s/Carmella
Case Manager
267-299-4928

12a
STATEMENT OF FACTS
Plaintiff Ruth McLean’s (“McLean”) Complaint
arises out of a judgment entered against her following a
two-day trial in the 44th District Court of the State of
Michigan, and the efforts of the Defendant, 800 DC,
LLC d/b/a 1800DRYCLEAN (“800DC”), to collect on
that judgment.
McLean fully participated in the Michigan state
court proceedings as well as in the New Jersey state
court proceedings to domesticate and collect on the
judgment. Her Complaint's jurisdictional and various
random challenges based on “Due Process,” frVenue”
and “Civil Rights” have been considered and denied at
each stage, without appeal. She has also attempted to
avoid the judgment by way of a bankruptcy filing which
was recently dismissed at her request. This Complaint
reflects her latest attempt to avoid responsibility for
the debt owed by her and, for the reasons set forth
herein, should be dismissed in its entirety.
I.

Michigan State Court Proceedings

The Defendant herein, 800 DC, LLC, D/B/A
BIZZIE, and 1800DRYCLEAN (“800 DC”)’s complaint
in the 44th District Court in Michigan set forth claims of
breach of contract and unfair competition with respect
to a dry cleaning pick-up and delivery franchise owned
and operated by the within Plaintiff, Ruth McLean, in
the City of Plainsboro, State of New Jersey. The
Defendant’s claim in Michigan was made against
McLean pursuant to the terms of the Franchise
Agreement dated January 14, 2005, as a result of her
multiple and repeated failures to comply with the its
terms, including but not limited to (A) failing to timely

13a

pay royalties and other sums required under the
Agreement, and (B) failing to comply with the
post-termination obligations under the Agreement.1
McLean entered into the Agreement on January
14, 2005 with 1-800- DryClean, LLC. On July 9, 2012,
800 DC purchased substantially all of the assets of the
1-800-DryClean franchise system, including without
limitation the Franchise Agreement and the
1-800-DryClean trademark, from the prior franchisor.2
McLean voluntarily terminated the Franchise
Agreement on August 20, 2013. Following that
termination, 800 DC learned that she continued to
engage in dry cleaning operations under the name
“Black Tie Cleaners” in violation of the non-competition
provisions contained in the Franchise Agreement at 1MT
13.B and 13.D. Based on these breaches of contract, on
May 29, 2014, 1-800-DryClean sent McLean written
notice thereof and demanded that she cease and desist
such conduct and further, that she pay royalties which
would have been paid during that time period, had she
not unilaterally terminated the Agreement.
McLean was initially represented by counsel in
the Michigan proceedings, however after counsel’s
motion challenging the jurisdiction and venue was
denied, counsel withdrew from the proceedings.
McLean thereafter represented herself. Following
discovery and various summary disposition motions
filed by both sides, the parties appeared for a bench
trial which was conducted on May 12, 2017. Judgment
1 Ruth McLean’s ex-husband and her company, The C2 Group,
were also signatories to the Franchise Agreement and were named
as Defendants in the 44th District Court action. They are not
parties to this proceeding.
2 McLean’s challenge to the standing of 800DC to pursue breach of
the Franchise Agreement was rejected by the 44th District Court.

14a
was entered in the amount of $11,967.00. See Exhibit
“A.” The counterclaim asserted by McLean was
dismissed on its merits. In addition, on August 7, 2017,
the Michigan court entered an order awarding 800 DC
attorneys’ fees in the amount of $5,000.00 under the
terms of the Franchise Agreement. See Exhibit “C ”
McLean did not seek appellate review of any of
the orders or judgments entered by the 44th District
Court, despite the availability of an appeal by right
under Michigan Court Rule 7.103.3
II.

New Jersey State Court Proceedings

Following entry of the Michigan judgments, 800
DC, LLC began domestication and collection efforts in
the State of New Jersey. On July 20, 2018, the office of
the undersigned filed a Certification with the Clerk of
the Superior Court of the State of New Jersey for
domestication of the June 30, 2017 and August 7, 2017
judgments of the 44th District Court of the State of
Michigan. See Exhibit “F.”
Thereafter, the Clerk sent McLean a Notice To
Judgment Debtor (“Notice”) informing here that a
judgment entered in the State Michigan had been
properly recorded in the State of New Jersey pursuant
to the Uniform Enforcement of Foreign Judgments Act
(“UEFJA”), as of July 20, 2018. Ex. “B.” The Notice
identified the within Defendant as the creditor and
identified the undersigned as the creditor’s attorney.
Id.
3 MCR 7.103(A)(1) provides: Appeal of Right. The circuit court has
jurisdiction of an appeal of right filed by an aggrieved party from
the following., .a final judgment or final order of a district or
municipal court, except a judgment based on a plea of guilty or
nolo contendere.

15a

On August 6, 2018, McLean filed a motion to
dismiss the domesticated judgment in the New Jersey
Superior Court, County of Middlesex. The motion was
fully briefed and following argument on September 21,
2018, on September 25, 2018, the Court denied
McLean's motion. See Exhibit “G.” No appeal was
taken by McLean.
On or about September 27, 2018, McLean filed a
motion to reconsider the Court’s order of September 25,
2018, denying her requests for relief. On October 26,
2018, the Court denied McLean’s motion, stating (1)
that it was not in compliance with the Rules of Court
and (2) that it merely repeated previous arguments.
See Exhibit “H.” No appeal was taken by McLean.
On October 30, 2018, McLean filed a third
challenge to 800 DC’s properly domesticated judgment.
On December 7, 2018, the Court again denied McLean’s
motion. See Exhibit “I.” Judge Lisa M. Vignuolo, J.S.C.
included in her Order a Statement of Reasons that
recounted (1) the prior Orders she had entered denying
McLean’s requests for relief, (2) indicated that McLean
now sought “identical relief for the third time,” and (3)
that McLean, by way of correspondence of November
13, 2018 from the Civil Assignment Judge, had been
directly informed that “the proper recourse concerning
the denial of [McLean’s] Motion for Reconsideration
[was] to file an appeal.” Id. To date, no appeal has been
taken by McLean, and the time within which she had to
appeal any of the New Jersey Superior Court orders
denying her requests for relief has expired.
III. District
Proceedings

of

New

Jersey

Bankruptcy

Following these defeats in New Jersey Superior

16a
Court, McLean filed a Petition for Bankruptcy on
November 21, 2018, at Case No: 18-33057-MBK in the
U.S. Bankruptcy Court for the District of New Jersey.
See Exhibit “D.” Her initial filing was defective and a
show cause was entered compelling her to remedy that
defect as well as a later show cause regarding her
failure to make required payments. On January 3, 2019
her bankruptcy petition was dismissed due to her
failure to make required payments. The order
dismissing was vacated on motion by McLean on
January 24, 2019.
F ollowing reinstatement of her bankruptcy
petition, McLean filed a variety of motions and
objections to avoid her various creditors, including
800DC. On May 31, 2019, the Bankruptcy Court denied
McLean’s motion to object to the claim of 800DC. See
Exhibit “E.” Following multiple motions to challenge
her proposed plan filed by other creditors, McLean filed
a motion to voluntarily dismiss her own bankruptcy
petition, which was granted on September 11, 2019.
However, even before the bankruptcy petition
was dismissed, on August 26, 2019, McLean filed her
complaint before this Court alleging damages of over
$500,000.00 arising out of 800 DC’s lawsuit in Michigan
and the ensuing efforts to collect on its judgment.
LAW AND ARGUMENT
I.

Standard of Review

Fed. R. Civ. P. 12(b)(1) permits dismissal of a
complaint for lack of subject matter jurisdiction. In
evaluating such a motion, “no presumptive truthfulness
attaches to plaintiffs allegations, and the existence of
disputed material facts will not preclude the trial court

17a

from evaluating for itself the merits of jurisdictional
claims.” Mortensen v First Fed Sav & L Ass’n, 549 F2d
884, 891 (CA 3, 1977) Further, the plaintiff bears the
burden of proof that jurisdiction does, in fact, exist.
Hartig Drug Co Inc v. Senju Pharm Co Ltd, 836 F3d
261, 268 (CA 3, 2016). Moreover, all courts “have an
independent obligation to determine whether
subject-matter jurisdiction exists.” Great W Mining &
Mineral Co v. Fox Rothschild LLP, 615 F3d 159, 163
(CA 3, 2010), citing Arbaugh v. Y & H Corp., 546 U.S.
500, 514, 126 S.Ct. 1235, 163 L.Ed.2d 1097 (2006). See,
e.g., In re Madera, 586 F3d 228 (CA 3, 2009) (Affirming
sua sponte dismissal by bankruptcy court on
Rooker-Feldman doctrine for claim seeking review of
state court foreclosure.)
Fed. R. Civ. P. 12(b)(6) permits dismissal of a
complaint where it fails to state claim upon which relief
can be granted. In evaluating a Rule 12(b)(6) motion to
dismiss for failure to state a claim, a court may consider
only the complaint, exhibits attached to the complaint,
matters of public record, and undisputedly authentic
documents if the complainant’s claims are based upon
those documents. Pension Benefit Guar. Corp. v. White
Consol. Indus., Inc., 998 F.2d 1192, 1196 (3d Cir. 1993).
Further, in deciding a motion to dismiss, courts may
consider “matters incorporated by reference or integral
to the claim.” Buck v. Hampton Twp. Sch. Dist, 452
F.3d 256, 260 (3d Cir.2006).
II.
The Rooker-Feldman Doctrine precludes
re-litigation of the State court proceeding in this
Court.
Plaintiffs complaint asks this Court to
second-guess the jurisdictional and other procedural

18a

challenges which she raised and lost in the Michigan
action and did not appeal. Such federal review of state
court judgments is prohibited under the
Rooker-Feldman doctrine.4
The Rooker-Feldman doctrine derives from 28
U.S.C. § 1257. That provision provides that only that
the Supreme Court of the United States, and not the
lower federal courts, has jurisdiction to review a state
court decision. Section 1257 states, in relevant part:
[f]inal judgments or decrees rendered by
the highest court of a State in which a
decision could be had, may be reviewed by
the Supreme Court by writ of certiorari
where the validity of a treaty or statute of
the United States is drawn in question or
where the validity of a statute of any
State is drawn in question on the ground
of its being repugnant to the Constitution,
treaties, or laws of the United States....
The doctrine itself is named after two Supreme Court
decisions, Rooker v. Fidelity Trust Co., 263 U.S. 413, 44
S.Ct. 149, 68 L.Ed. 362 (1923), and District of Columbia
Court of Appeals v. Feldman, 460 U.S. 462, 103 S.Ct.
1303, 75 L.Ed.2d 206 (1983). In Rooker, a party to a
state court action that had been affirmed by the state’s
supreme court brought a bill in equity in federal district
court seeking to have the state court judgment
declared null and void as being in violation of the
4 On October 16,2019, this Court considered argument on
Plaintiffs motion for injunctive relief and denied such relief as her
claims failed to demonstrate a likelihood of success, based on
Rooker-Feldman. As set forth herein, for the same reasons,
dismissal of Plaintiffs complaint in its entirety is warranted.

19a
United States Constitution. The plaintiffs allegations in
the federal suit were indistinguishable from those
usually made in an appeal: they claimed that the state
court had given effect to an unconstitutional state
statute and had failed to give effect to a prior decision
that had become law of the case. See 263 U.S. at 415, 44
S.Ct. 149.
In rejecting the federal action, the Rooker Court
explained:
It affirmatively appears from the bill that
the judgment was rendered in a cause
wherein the circuit court had jurisdiction
of both the subject matter and the parties;
that a full hearing was had therein; that
the judgment was responsive to the
issues, and that it was affirmed by the
Supreme Court of the State on an appeal
by the plaintiffs. If the constitutional
questions stated in the bill actually arose
in the cause, it was the province and duty
of the state courts to decide them; and
their decision, whether right or wrong,
was an exercise of jurisdiction. If the
decision was wrong, that did not make the
judgment void, but merely left it open to
reversal or modification in an appropriate
and timely appellate proceeding.
Thus, any remedy was left to the state court appellate
procedure in the first instance, with application for
leave to appeal to the United States Supreme Court
upon exhaustion of those state appellate avenues.
Sixty years later, in the Feldman decision, 460
U.S. 462,103 S.Ct. 1303, 75 L.Ed.2d 206, plaintiffs Marc

20a

Feldman and Edward J. Hickey, Jr., filed suit in federal
court challenging the District of Columbia's
requirement to attend an ABA accredited law school in
order to sit for the D.C. bar exam. Prior to filing thenfederal suit, Feldman and Hickey had each
unsuccessfully filed suit in the D.C. Court of Appeals
for a waiver of the rule based on constitutional and
equitable challenges.
In rejecting their efforts to re-assert their
challenge in the federal district court based on the Fifth
Amendment of the United States Constitution and
federal antitrust laws, the Supreme Court ruled that
the federal district court lacked jurisdiction over the
federal actions, as the D.C. Court of Appeals actions
were judicial in nature and therefore, the constitutional
challenges were “inextricably intertwined” with the
state court actions and thus, not subject to review in
federal district court:
[T]he[ ] allegations that the District of
Columbia Court of Appeals acted
arbitrarily and capriciously in denying
their petitions for waiver and that the
court
acted
unreasonably
and
discriminatorily in denying their petitions
in view of its former policy of granting
waivers to graduates of unaccredited law
schools required the District Court to
review a final judicial decision of the
highest court of a jurisdiction in a
particular case. These allegations are
inextricably intertwined with the District
of Columbia Court of Appeals’ decisions,
in judicial proceedings, to deny the
respondents’ petitions. Id, at 486, 103

21a

S.Ct. 1303.
This Court has recognized that “a federal action is
inextricably intertwined with a state adjudication, and
thus barred in federal court under Feldman, ‘[wjhere
federal relief can only be predicated upon a conviction
that the state court was wrong.’” Centifanti v. Nix, 865
F.2d 1422, 1430 (3d Cir.1989), quoting Pennzoil Co. v.
Texaco Inc., 481 U.S. 1, 25, 107 S.Ct. 1519, 95 L.Ed.2d 1
(1987) (Marshall, J., concurring)).
Here, it cannot be disputed that McLean’s
complaint ask this Court to review the ruling of the
Michigan court that rejected her jurisdictional and due
process arguments. Even if the Michigan district court
was wrong in its determinations, McLean’s remedy was
to take an appeal within the Michigan court system not simply asking this Court to re-visit the issues. As
noted herein, McLean did not seek any appellate review
in the Michigan proceedings and instead, simply
ignored the judgment until 800DC began collection
efforts.
Likewise, her attempt to have this Court review
800DC’s domestication of the Michigan judgment in
New Jersey and collection efforts is not reviewable in
this Court, but rather via appeal in the New Jersey
state court system, which she has not done and for
which time has expired. New Jersey state law; under
the Uniform Enforcement of Foreign Judgments Act
(UEFJA), recognizes that “merit or substantive
defenses, i.e., those that could have been raised prior to
entry of judgment, are not addressed by N.J.S.A.
2A:49A-27. Litigants seeking to assert merit defenses,
other than due process defenses, must do so in the
forum state...,” i.e. Michigan. Sonntag Reporting Serv,
Ltd v. Ciccarelli, 374 NJ Super 533, 540; 865 A2d 747,
751 (2005).

22a

Further, while a judgment-debtor such as
McLean “may raise ‘due process defenses’ in any
enforcement action in New Jersey under the UEFJA”,
review of the New Jersey court’s determination is still
governed by the New Jersey appellate system. See,
e.g., State of Maine v. SeKap, SA Greek Co-op Cigarette
Mfg Co, SA, 392 NJ Super 227, 235; 920 A2d 667, 672
(2007). Again, this remedy was not pursued by McLean
following the New Jersey Superior Court’s denial of her
challenges to the duly domesticated judgment.
Plainly, here, McLean’s remedy was to seek
appellate review of those state court judgments in their
respective state court systems and lastly, seek review
from the United States Supreme Court via 28 U.S.C. §
1257. She did not pursue any such relief, despite
presenting
jurisdictional
and
various
other
constitutional challenges before both of those state
courts. For the same reason that injunctive relief was
not warranted, Plaintiffs complaint must be dismissed
pursuant to Fed. R. Civ. P. 12(b)(1) and/or (6).
CONCLUSION
For all of the foregoing reasons, the Defendant,
800 DC, LLC d/b/a 1800Dryclean, respectfully requests
that this Honorable Court enter an order dismissing
Plaintiffs complaint, together with any additional relief
this Court deems warranted.
Dated: October 18,2019
P.C.

KRAVIS

&

WURGAFT,

Attorneys for Defendant

Matthew Wurgaft

23a
201 Washington Street
Newark, NJ 07102
(973) 242-6220 P
(646) 878-9039 F
mwurgaft@kraviswurgafI.co
m

24a
3:19-cv-17310-BRM-LHG MCLEAN v. 800 DC, LLC
et al
Brian R. Martinotti, presiding
Lois H. Goodman, referral
Date filed: 08/28/2019
Date terminated: 01/07/2020
Date of last filing: 03/13/2020
History
Doc Dates
No.
1
Filed: 08/28/2019
Entered: 08/29/2019
2
Filed: 08/28/2019
Entered: 08/29/2019
3
Filed & Entered:
08/29/2019
Filed: 09/09/2019
Entered: 09/10/2019
4

5.

6
2

Description
Complaint
Notice (Other)
Summons Issued
Set/Reset Motion and
R&R
Deadlines/Hearings
Motion for Preliminary
Injunction

Filed: 09/09/2019
Entered: 09/10/2019
Terminated: 10/16/2019
Filed & Entered:
Set/Reset Motion and
09/18/2019
R&R
Deadlines/Hearings
Filed & Entered:
Motion for Leave to
09/18/2019
Appear Pro Hac Vice
Terminated: 10/16/2019
Filed & Entered:
Waiver of Service
09/18/2019
Executed
Filed & Entered:
Letter
09/18/2019

25a
8

9

Filed: 09/26/2019
Entered: 09/27/2019
Terminated: 10/16/2019
Filed: 09/26/2019
Entered: 09/27/2019
Filed & Entered:
09/27/2019

10

Filed & Entered:
09/27/2019
Filed & Entered:
09/30/2019

11

Filed & Entered:
10/01/2019
Filed & Entered:
10/01/2019
Filed & Entered:
10/04/2019
Filed: 10/11/2019
Entered: 10/15/2019
Filed & Entered:
10/16/2019
Filed & Entered:
10/16/2019
Filed & Entered:
10/16/2019
Filed & Entered:
10/16/2019
Filed & Entered:
10/18/2019

12
13
14
15
16
17
18

Filed & Entered:
16/18/2019

Motion to Stay

Response to Motion
Set/Reset Motion and
R&R
Deadlines/Hearings
Corporate Disclosure
Statement (aty)_____
Set/Reset Motion and
R&R
Deadlines/Hearings
Letter
Order
Response in Opposition
to Motion
Response (NOT Motion)
Order on Motion for
Leave to Appear
Status Conference
Letter
Order on Motion for
Preliminary injunction
Set/Reset Motion and
R&R
Deadlines/Hearings
QC - Generic Message

26a
19

23

21
22
23

24

25

26

27

28

Filed & Entered:
10/18/2019
Terminated: 01/07/2020
Filed & Entered:
10/18/2019
Filed: 10/22/2019
Entered: 10/23/2019
Filed & Entered:
10/30/2019
Filed & Entered:
11/04/2019
Filed & Entered:
1/18/2019
Filed & Entered:
11/18/2019
Filed: 11/20/2019
Entered: 11/21/2019

Motion for Summary
Judgment
Letter
Notice (Other)
Notice (Other)
Notice (Other)
Set/Reset Motion and
R&R
Deadlines/Hearings
Letter
Set/Reset Motion and
R&R
Deadlines/Hearings
Motion for Writ

Filed: 11/20/2019
Entered: 11/21/2019
Terminated: 11/26/2019
Filed & Entered:
QC - Document filed
11/26/2019
contrary to the Local
Rules
Filed: 12/13/2019
Set/Reset Motion and
Entered: 12/16/2019
R&R
Deadlines/Hearings
Filed: 12/13/2019
Motion for Summary
Entered: 12/16/2019
Judgment
Terminated: 01/07/2020
Filed & Entered:
Letter
01/02/2020
Filed & Entered:
Motion Hearing

27a

29
30

31
32
33

34

01/07/2020
Filed & Entered:
01/07/2020
Filed & Entered:
01/07/2020
Filed & Entered:
01/07/2020
Filed & Entered:
01/31/2020
Filed & Entered:
02/03/2020
Filed & Entered:
03/13/2020

Order
Letter
Order on Motion for
Summary Judgment
Notice of Appeal
(USC A)
USCA Case Number
Notice (Other)

PACER Service Center
Transaction Receipt
06/15/2020 12:49:00
PACER
Client
appealfww
Login:
Code:
History/
Search
3:19-cv-17310Description:
Documents Criteria:
BRM- LHG
Billable
2
Cost:
0.20
Pages:

28a
United States District Court
for the
District of New Jersey
Division
Ruth T. Mclean
Plaintiff(s)
(Write the full name of
each plaintiff who is
filing this complaint. If
the names of all the
plaintiffs cannotfit in
the space above, please
write “sea attached” in
the space and attach an
additional page with the
full list of names.)
-v800DC, LLCBIZZIE
And 1800DRYCLEAN
Defendant(s)
(Write the full name of
each defendant who is
being sued. If the names
of all the defendants
cannot fit in the space
above, please write usee
attached” in the space
can attach an additio^vxl
page with the full list of
names.)

)

Case No.

)
)

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

(to be filled in by the
Clerk’s Office)

Jury Trial: (check one)
El Yes

□ No

29a

COMPLAINT FOR A CIVIL CASE
The Parties to This Complaint
The Plaintiff(s)
Provide the information below for each plaintiff
named in the complaint. Attach additional pages if
needed.
I.
A

Name
Street Address
City and County
State and ZipCode
Telephone Number
E-mail Address

Ruth T. Mclean
P.O.BOX 137
Plainshoro
NJ. 08536
(973) 222 4928
ruthtmclean@vahoo.com

B.

The Defendant(s)
Provide the information below for each
defendant named in the Complaint, whether the
defendant is an; individual, a government agency, an
organization, or a corporation. For an individual
defendant, include the person's job or title {if known).
Attach additional pages if needed.
Defendant No. 1
Name

800 DC. LLC. DBA BIZZTE
& 1800DRYCLEAN
Job or Title (If known)
Attorney
Street Address
201 Washington St.
City and County
Newark
State and Zip Code
NJ. 07102
Telephone Number
973 242 6220
E-mail Address (if known) mwurgaft@kravisfi1e com
Defendant No. 2

30a
Name

800 DC LLC. DBA BIZZTE
And 1800DRYCLEAN
Job or Title (If known) . Attorney
Street Address
550 W. Merrill St., ste. 100
City and County
Birmingham
State and Zip Code
ML 48009
Telephone Number
248-268-7800
E-mail Address (if known) dino@koroIaw.com
Defendant No. 3
Name
Job or Title (If known)
Street Address
City and County
State and Zip Code
Telephone Number
E-mail Address (if known)
Defendant No. 4
Name
Job or Title (If known)
Street Address
City and County
State and Zip Code
Telephone Number
E-mail Address (ifknoivn)
II.

Basis for Jurisdiction
Federal courts are courts of limited jurisdiction
(limited, power). Generally, only two types of cases can
be heard in federal court: cases involving a federal
question and cases involving diversity of citizenship of
the parties. Under 28U.S.C. § 1331, a case arising under
the United States Constitution or federal laws or
treaties is a federal question case. Under 28 U.S.C. §

31a

1332, a case in which a citizen of one State sues a citizen
of another State of nation and the amount at stake is
more than $75,000 is a diversity of citizenship case. In a
diversity of citizenship case, no defendant may be a
citizen of the same State as any plaintiff.
What is the basis for federal court jurisdiction? (check
all that apply)
□ Federal question \E\ Diversity of citizenship
Fill out the paragraphs in this section that apply to this
case.
A.
If the Basis for Jurisdiction Is a Federal
Question
List the specific federal statutes, federal
treaties, and/or provisions of the United States
Constitution that are at issue in this case.
28 U.S.C. section 1332 Subject Matter
Jurisdiction; 28 U.S.C. section 1331 Jurisdiction of the
court; Due Process violation: Rule 8(a), F.R. Cv.P
Requires that jurisdiction be shown in pleadings. 14th
and 5th Constitutional Amendment Duo Process
Procedural Requirements before Deprivation Of
Property

B.
If the Basis for Jurisdiction Is Diversity of
Citizenship
1. The Plaintiff(s)
a.
If the plaintiff is an individual
The plaintiff, (name) Ruth T. Mclean. is a citizen of the
State of (name) New Jersey

32a
b.
If .the plaintiff is a corporation
The plaintiff, (name)___________________________ _
is incorporated under the laws of the State of (name)
________________________________________ and has
its principal place of business in the State of (name)

(If more than one plaintiff is named m the complaint,
attach an additional page providing the same
information for each additional plaintiff)
2.

The Defendant(s)
a.
If the defendant is an individual
The defendant, (name) 800DC. LLC. DBA. BIZZIE &
1800DC, is a citizen of the State of (name) Michigan. Or
is
a
citizen
of
(foreign
nation)
b.
If the defendant is a corporation
The
defendant,
(name)
_____ _______________________,
is
incorporated
tinder the laws of the State of (name) ____
________ _____________________________, and has its
principal place of business in the State of (name)
Or is incorporated under the laws of (foreign nation)
and has its principal place of business in (name)

(If more than one defendant is named in the complaint,
attach an additional page providing the same
information for each additional defendant)
3.

The Amount in Controversy

33a

The amount in controversy-the amount the plaintiff
claims the defendant owes or the amount at stake-is
more than $75,000, not counting interest and costs of
court, because (explain):
Damages: $500,000

III.

Statement of Claim

Write a short and plain statement of the claim.
Do not make legal arguments. State as briefly as
possible the facts showing that each plaintiff is entitled
to the damages or other relief sought. State how each
defendant was involved and what each defendant did
that caused the plaintiff harm or violated the plaintiffs
rights, including the dates and places of that
involvement or conduct. If more than one claim is
asserted, number each claim and write a short and plain
statement of each claim in a separate paragraph. Attach
additional pages if needed.
Grievances within this lawsuit are against (800
DC LLC DBA BIZZIE and 1800 DRYCLEAN, a
Michigan LLC). It stems from a lawsuit they filed on
April 15, 2015 in Michigan 44th District Court against
me, my ex-husband and my New Jersey business C2
Group LLC. Defendant cited among other charges
about my ex- husband driving a van for a business he
didn’t own and; that we breach their contract by early
terminatioin/resigning. My ex-husband vacated after
we divorced by May 2010, 5 years prior to the lawsuit
and I vacated by August 2013, 2 years prior plus the
contract had already expired on January 13, 2015.

34a

Therefore the lawsuit had no merit thus any legitimate
claim or entitlement to it. On June 30, 2017 the local
traffic court magistrate in Michigan dismissed my
pleading and objections to jurisdiction, and proceeded
to grant a judgment to seize and deprive me of
property totaling $.16,976.
1
Questioning the court proceedings in Michigan
initiated by the Defendant: Infringed on my 14th and
5th Constitutional Amendment Rights for the promise
of legality and fair procedure- Due Process before
Deprivation of Property: Federal Rules of Civil
Procedure Rule (4) Summons (a), (b), (c), (n)(l) were
violated that each defendant are to be summon.
Including the judge’s Subject Matter and in personam
jurisdiction to perside.
2
Mentally and financially straining special
appearances to come out-of-state were forced under
threat, duress, coercion that a default judgment would
be granted for not-coming.
3
An affidavit of June 2, 2015 sign by the process
server Anabela Pinto sworn certificate shows that I
was not served a summons.
4
A court order summons dated April 15, 2015
shows a court seal and sign by the clerk issued with my
name and addressed to 35 Dogwood Dr was not
delivered. Another summons dated July 15, 2015 issued
with my name and address at 35 Dogwood Dr. was not
delivered. There was no court order summons issued
for me my business C2 or my ex-husband at 201
Schillaci Ln, this was fraud.
These acts were harassment and invasion of
5
privacy. Note: My ex-husband who lived an hour away,
at 201 Schillaci Ln; contacted me to say documents
were dropped off that said I had to come to court or a

35a
default judgment would be granted against me. His
mother-in-law was visiting; does not live in his
household; lives out of the country; speaks broken
English and not a citizen of the United States.
6
His mother-in-law is not a member of my
household, at 35 Dogwood. I never lived wife my
ex-husband at 201 Schillaci. The business C2 is not
located 201 Schillaci Ln, it was at 35 Dogwood. Ms.
Pinto-process server, used misleading documents that
fraudulently added my name and the C2 business name
to my ex- husband address.
7
I never visited Michigan or had a business there.
These actions were violations of rules for proper service
and a violation of a local magistrate’s out-of-state
jurisdictional reach. In addition Subject Matter and in
personam jurisdiction to enable the magistrate to
preside was not disclosed in Defendant’s pleadings.
8
By July 2018 Defendant came to New Jersey to
domesticate the Michigan Judgment and again
,
my
objections to due process and jurisdiction,, were
dismissed without written explanation.
9
Cause Of Action: Jurisdiction can be challenged
at anytime, once its challenged it must be proven on
record. Oh October 30, 2018 I sent a Writ of
Jurisdictional Challenge with Affidavit to the 800DC,
LLC Defendant via certified mail. With a request to
respond to my affidavit on a point by point bases in
writing or accept a default of their actions, with a
default being a full dismissal of any and all related
charges as well as specific charges in the case. It was
delivered November 1, 2018 with a time to respond of
seven (7) days from service date. To-date the
Defendant has not responded.

36a
IV.

Relief
State briefly and precisely what damages or
other relief the plaintiff asks the court to order. Do not
make legal arguments. Include any basis for claiming
that the wrongs alleged are continuing at the present
time. Include fee amounts of any actual damages
claimed for the acts alleged and the basis for these
amounts. Include any punitive or exemplary damages
claimed, the amounts, and the reasons you claim you
are entitled to actual or punitive money damages.
800DC, LLC non-response to my Jurisdictional
Challenge shows value. My civil rights to Due Process
were deliberately violated. Further the acts of the
Michigan judge was unauthorty to preside and grant a
judgement to seize and deprive me of my property. I
therefore charge the Defendants for damages stress
and mental anguish for me coming out of state, cost of
legal aids, court fees: $100,000/year for every year of
harassment and torment inflected payable within 30
days of a court ruling.
Attached Exhibits:
1.
Ms. Pinto-Process Server court seal and court
clerk Summons & Affidavit June 2,2015.
2.
Ms. Pinto-Process Server fraudulent Summons
& Affidavit August 28,2015.
A.
Jurisdiction and Due Process pleading to the
court November 20,2015.
3.
Court Special Appearances beginning 2015.
4.
Default Judgment against my business C2 Group
LLC April 29, 2016
5.
Michigan Judgment against me June 30,2017
6.
Writ of Jurisdiction Challenge to 800DC, LLC
October 30,2018.

37a

V. Certification and Closing
Under Federal Rule of Civil Procedure 11, by
signing below, I certify to the best of my knowledge,
information, and belief that this complaint: (1) is not
being presented for an improper purpose, such as to
harass, cause unnecessary delay, or needlessly increase
the cost of litigation; (2) is supported by crusting law or
by a nonfrivolous argument for extending, modifying,
or reversing existing law; (3) the factual contentions
have evidentiary support or, if specifically so identified,
will likely have evidentiary support after a reasonable
opportunity for further investigation or discovery; and
(4) the complaint Otherwise complies with the
requirements of Rule 11.
A.

For Parties Without an Attorney

I agree to provide the Clerk’s Office with any
changes to my address where case-related papers may
be Served. I understand that my failure to keep a
current address on file with the Clerk’s Office may
result in the dismissal of my case.
Date of signing:
08/26/2019
By Plaintiff __________________ ________
Printed Name of Plaintiff Mclean-Thompson Ruth
B.

For Attorneys

Date of signing:
Signature

of

Attorney

}

38a

Printed

Name

of

i

Attorney

Bar Number_____
Name of Law Firm
Street Address___
State and Zip Code
Telephone Number
E-mail Address

N
i
n

r

\

